         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Recovery Act Funded Projects at the
Lawrence Berkeley National
Laboratory




OAS-RA-L-12-02                     January 2012
                                 Department of Energy
                                   Washington, DC 20585


                                        January 12, 2012


MEMORANDUM FOR THE MANAGER, BERKELEY SITE OFFICE



FROM:                    David Sedillo
                         Director, Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Recovery Act Funded Projects at
                         the Lawrence Berkeley National Laboratory"
                         Audit Report Number: OAS-RA-L-12-02

BACKGROUND

In February 2009, the President signed the American Recovery and Reinvestment Act of 2009
(Recovery Act) into law. The goals of the Recovery Act were to retain and create jobs, increase
economic efficiency, and invest in infrastructure that would provide long-term economic
benefits. The Department of Energy's (Department) Office of Science received $1.6 billion
through the Recovery Act which it used to invest in various projects. The Lawrence Berkeley
National Laboratory (Berkeley) received approximately $333.4 million in Recovery Act funds,
primarily from the Department for infrastructure upgrades and a broad array of research efforts.
These funds were allocated to 130 projects related to infrastructure, energy, science, computing,
and health. Berkeley is managed and operated by the University of California (University). The
Berkeley Site Office (Site Office) is responsible for overseeing Berkeley, including its
management of these projects.

Berkeley's Internal Audit Services Department (Internal Audit) performed a considerable amount
of prior audit work regarding Berkeley's Recovery Act activities. Internal Audit found that
Berkeley substantially complied with all of the requirements of the Recovery Act. We reviewed
the work of Internal Audit and determined that it met the Institute of Internal Audit Standards
and could be relied upon. Based on the importance of the Recovery Act's investment in science
projects, however, we performed additional testing on five Berkeley Recovery Act funded
projects, accounting for $129.5 million, to determine if Berkeley efficiently and effectively
managed its Recovery Act projects.

CONCLUSIONS AND OBSERVATIONS

The five Berkeley Recovery Act funded projects we reviewed were on schedule and within
budget. In addition, we found that Berkeley's project managers generally employed project
management practices required by the Department. We also found that Berkeley was generally
in compliance with selected Recovery Act requirements, including the segregation of funds. We
did, however, identify one instance where Berkeley's actions did not comply with Recovery Act
requirements to ensure that subcontractor invoices were always clearly identified as Recovery
Act funded work.

                                   Recovery Act Designation

Berkeley did not always ensure that subcontractor invoices clearly identified Recovery Act
funded work. Based on our review of 71 invoices, we identified 48 that did not clearly delineate
the work was Recovery Act funded. The purpose of separating charges by funding source was to
ensure that the contractor and subcontractor segregated obligations and expenditures related to
Recovery Act funding. Berkeley's prime contract, Clause H.33 – Special Provisions Relating to
Work Funded Under the Recovery Act, as well as Berkeley's internal policy, Recovery Act
Procurement Guidelines, stated that invoices must clearly indicate the portion of the invoice that
is for work funded by the Recovery Act. Although the above requirement was included in
subcontract terms and conditions, Berkeley accepted the invoices for payment even though the
subcontractors did not designate Recovery Act funded work on their invoices.

Berkeley recognized that expecting subcontractors to track and label Recovery Act invoices
separately could be an overwhelming prospect and reduced the risk of comingling by minimizing
the opportunities for subcontractors to make errors in identifying portions of invoices that were
funded by the Recovery Act. Specifically, for most invoices, Berkeley does not allow Recovery
Act and non-Recovery Act funding to be included as part of the same transaction. Berkeley
stated that Recovery Act invoices are appropriately segregated by developing systems and
business rules that prevent the issuance of transactions with mixed funding. For example,
Berkeley established separate purchase order and requisition numbers to charge Recovery Act
purchases. There were only three subcontracts that Berkeley allowed to use mixed funding and a
special process was created to manage the invoices for those subcontracts. In these cases,
Berkeley required those subcontractors to clearly indicate the portion that was attributable to
Recovery Act funding.

Despite the lack of inclusion of the Recovery Act classification requirement, we determined that
subcontractor costs were appropriately segregated for the items we tested, in part, because the
invoices were linked to purchase orders that were specific and clearly designated as funded by
the Recovery Act. Therefore, it appears that Berkeley reduced the potential for comingling of
Recovery Act and non-Recovery Act funding, as required by Department regulations.

Since no formal recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of your staff and the various Departmental elements
that provided information or assistance during this effort.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Director, Office of Science
    Chief Financial Officer
    Chief of Staff


                                                2
                                                                                       Attachment

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine if Lawrence Berkeley National Laboratory
(Berkeley) efficiently and effectively managed its American Recovery and Reinvestment Act of
2009 (Recovery Act) projects.

SCOPE

The audit was performed between May 2011 and November 2011, at Berkeley and the Berkeley
Site Office, located in Berkeley, California. Our audit included a review of selected Berkeley
Recovery Act projects.

METHODOLOGY

To accomplish the audit objective, we:

       Assessed compliance with policies and procedures, laws and regulations, and contract
       terms applicable to Berkeley projects funded by the Recovery Act;

       Reviewed project management activities of selected Recovery Act funded projects;

       Reviewed and tested a judgmental sample of Berkeley subcontracts funded by the
       Recovery Act including the flow down of required clauses, central contractor registration,
       utilization of competition, and small business consideration;

       Selected transactions using statistical sampling techniques and tested for cost allowability
       and allocability under the Department of Energy contract cost principles; and,

       Reviewed Internal Audit's work related to project management and monitoring practices
       of Recovery Act projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives. The audit included tests of controls and
compliance with laws and regulations necessary to satisfy the audit objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our audit. During the audit, we reviewed performance measures
related to the Recovery Act in accordance with the Government Performance and Results Act of
1993. We utilized computer-processed data to identify the population of costs spent using
Recovery Act funding in order to accomplish our audit objective. Based on our comparison of
computer-processed data to supporting documentation, we determined that the data were
sufficiently reliable to achieve our objective.

Management waived an exit conference.


                                                3
                                                               IG Report No. OAS-RA-L-12-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

             U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
